                                      TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



March 27, 2014

David M. Czufin, LP 3R-C

FINAL REPORT – EVALUATION 2012-14842 – ACTIONS TO ADDRESS NUCLEAR
PLANT SYSTEMS, COMPONENTS, AND PROGRAMS WITH POOR RATINGS



During a prior review of how Tennessee Valley Authority (TVA) organizations assess the
condition of their assets,1 we learned that asset condition assessments done by the
Nuclear Power Group (NPG) had determined some generation assets are in poor
condition. As a follow up to the prior work, we performed a review to determine whether
TVA is taking actions to address NPG systems, components, and programs with poor
ratings. Under NPG’s health report process, actions are required when ratings are
designated red or yellow. Red ratings are defined as requiring excessive
monitoring/resources to maintain, and yellow ratings need additional attention.

We found 333 systems, programs, and components within NPG had been designated red
or yellow and randomly sampled 25 for detailed review. Our analysis showed at least two
actions were taken to address 24 of the 25 in our sample. For 1 component, only one
action was complete and other actions were awaiting approval. These actions resulted in
an improvement in condition to a white or green rating in 14 cases while 11 had ratings
that remained red or yellow. It is important to note that of the 11 remaining red and yellow
ratings, 2 moved from red to yellow, and 9 remained the same. In addition, 5 of the 9 that
remained red or yellow had some asset condition improvement, but not sufficient to move
to a new category.

BACKGROUND

TVA’s NPG Standard Program and Process System, Program, and Component Health,
NPG-SPP-09.16.1, states that health monitoring provides a method to improve and
maintain equipment performance by accomplishing the following:

    Identifying shortfalls in equipment performance or in programs that are important to
     maintain equipment performance which result in actions for improvement.
    Identifying issues from internal or external operating experience that have not been
     adequately addressed which require actions.


1
    Inspection 2009-12883 Survey of TVA’s Process for Determining Condition of Assets issued on
    September 20, 2012.
      WARNING: ThIs document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
       distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
               is not to be further distributed without prior approval of the Inspector General or his designee.

                                      TVA RESTRICTED INFORMATION
David M. Czufin
Page 2
March 27, 2014



     Identifying issues which will affect future performance of equipment such as aging,
      wearout, or obsolescence, which require actions to address in a proactive manner.

     Identifying opportunities offered by emerging technologies, benchmarking, or
      innovations that improve equipment performance.

NPG requires system health reports to be prepared three times a year and requires
component and program health reports to be prepared two times a year. Each system,
program, and component report is assigned a color rating of green, white, yellow, or red
based on the overall report score. According to NPG-SPP-09.16.1, a green rating requires
no additional attention, a white rating designates current performance/activities are
appropriate, a yellow rating needs additional attention, and a red rating requires excessive
monitoring/resources to maintain. Additionally, an action plan must be initiated for any
system, component, or program that has been assigned a yellow or red rating.

For the scope of our review, red and yellow reports accounted for 10.86 percent of
system health reports, 23.21 percent of program health reports, and 42.19 percent of
component health reports that can be seen in Figure 1 below.

     Figure 1: Percentage of Red and Yellow Systems, Programs, and Components
                               System                      Program                     Component
                      Total      Percentage        Total     Percentage        Total          Percentage
    Browns Ferry
    Nuclear - Red
    and Yellow           130            12.82%        20            27.78%        23               57.50%
    Sequoyah
    Nuclear - Red
    and Yellow            50             7.76%        16            21.05%        20               45.45%
    Watts Bar
    Nuclear - Red
    and Yellow            47            10.85%        16            21.05%        11               25.00%
    Total Red and
    Yellow               227            10.86%        52            23.21%        54               42.19%

System, program, and component health reports are used in the development of NPG’s
Long Term Equipment Reliability risk.

OBJECTIVE, SCOPE, AND METHODOLOGY

During a prior review of how TVA organizations assess the condition of their assets, 2 we
learned asset condition assessments done by the NPG had determined some generation
assets are in poor condition. As a follow up to the prior work, we performed this review to
determine whether TVA is taking actions to address NPG systems, components, and
programs with poor ratings.3 Due to varied reporting time frames, we reviewed system
2
     Inspection 2009-12883 Survey of TVA’s Process for Determining Condition of Assets issued on
     September 20, 2012.
3
     While NPG’s health report process requires actions to be taken for some white systems and any system with
     a red indicator, we did not include those items in our sample population.
                                   TVA RESTRICTED INFORMATION
David M. Czufin
Page 3
March 27, 2014



health information for the time period of October 1, 2010, through January 31, 2013;
component health information from October 1, 2010, through December 31, 2012; and
program health information from January 1, 2011, through December 31, 2012.

To achieve our objective, we:

    Interviewed key TVA personnel and reviewed the organization’s process to determine
     requirements for red and yellow health reports.
    Selected a random sample of 25 out of 333 red and yellow system, program, and
     component health reports to determine if actions were being taken. The sample
     consisted of 17 systems, 4 programs, and 4 components.
    Reviewed recent reports for the 25 sample reports to determine if the health of the
     system, program, or component had improved.

This review was performed in accordance with the Council of the Inspectors General for
Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.

FINDINGS

Actions were taken for all 25 of the systems, programs, and components in our sample
which resulted in an improvement in condition to a white or green rating for 14 of the
systems, programs, and components. However, 11 had ratings that remained red or
yellow.

We verified a minimum of two actions were taken for 24 of the 25 systems, programs, and
components in our sample. For 1 component, only one action was taken and other
actions were awaiting approval. Examples of actions taken included performing
preventive maintenance, installing new equipment, developing Problem Evaluation
Reports, and assigning a new engineer to be in charge of a component.

We reviewed system, program, and component health reports from the beginning of
2013 to identify whether health had improved. As seen in Figure 2 below, 56 percent of
the sample had a rating that had improved to green and white ratings. Additionally,
8 percent of the sample increased the rating from red to yellow. However, 36 percent of
the sample did not improve from the original rating.

          Figure 2: Recent System, Program, and Component Health Ratings
                                                                    Percentage of Health
      Condition Improvement         Number of Health Reports
                                                                          Reports
         Improved to Green                      4                           16%
         Improved to White                     10                           40%
    Improved From Red to Yellow                 2                            8%
        Remained the Same                       9                           36%

Of the nine health reports that did not have an improvement in rating, five did show an
improvement in health condition but not enough to result in an improved color rating, and
the remaining four did not show improvement. Interviews with the system, program, and

                              TVA RESTRICTED INFORMATION
David M. Czufin
Page 4
March 27, 2014



component engineers indicated several reasons for a lack of improvement. These
included a lengthy design change process, funding for critical spares, assignment of
Problem Evaluation Reports, new issues developing, and failures of new equipment
installed.

This memorandum does not include any recommendations and is to be used for
informational purposes only. Accordingly, no response is necessary.

Information in this memorandum may be subject to public disclosure. Please advise us of
any sensitive information that you recommend be withheld.

                               -     -       -      -       -

If you have any questions or wish to discuss our observations, please contact Deana D.
Scoggins, Senior Auditor, Evaluations, at (423) 785-4822 or Gregory R. Stinson, Director,
Evaluations, at (865) 633-7367. We appreciate the courtesy and cooperation received
from your staff during the evaluation.



Robert E. Martin
Assistant Inspector General
 (Audits and Evaluations)
ET 3C-K

DDS:FAJ
cc: Joe P. Grimes, LP 3R-C
    William D. Johnson, WT 7B-K
    Dwain K. Lanier, MR 3K-C
    Justin C. Maierhofer, WT 7B-K
    Richard W. Moore, ET 4C-K
    R. Windle Morgan, WT 9B-K
    OIG File No. 2012-14842




                              TVA RESTRICTED INFORMATION
